September 29, 2000

A. KEITH STRANGE
VICE PRESIDENT, PURCHASING AND MATERIALS

RUDOLPH K. UMSCHEID
VICE PRESIDENT, FACILITIES

SUBJECT:	 Audit Report–Review of Postal Service Major Construction Contracting
          Process (Report Number FA-AR-00-004)

This report presents the results of our review of the Postal Service major construction
contracting process. The objective of our audit was to review the Postal Service major
construction contracting process. Specific objectives were to evaluate management
controls and timeliness of contract awards.

Our audit identified no major problems in the contracting process. However, we
identified several opportunities for improvement. Specifically, the Postal Service could
improve the process by reviewing contract modifications to identify their causes and
reduce the dollar amount; developing and disseminating written guidance on the roles
and responsibilities for the process; and continuing to test and implement the
Automated Project Management System to ensure formal monitoring of contract
timeliness and performance measurement. We provided three recommendations to
address these issues.

Management agreed with the recommendations and has completed or proposed actions
to respond to them. Management's comments and our evaluation of their comments
are included in the report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Anthony
Cannarella, director, Facilities, at (703) 248-2270 or me at (703) 248-2182.



Billy Sauls
Assistant Inspector General
 for Business Protection
cc: 	 Clarence E. Lewis, Jr.
      Richard J. Strasser
      John R. Gunnels
Review of Postal Service Major Construction                           FA-AR-00-004
 Contracting Process



                                   TABLE OF CONTENTS

Executive Summary                                                        i

Part I

Introduction                                                             1

   Background                                                            1
   Objective, Scope, and Methodology                                     4
   Prior Audit Coverage                                                  5

Part II

Audit Results                                                            7

   Contract Performance and Modifications                                7

   Recommendation                                                        8
   Management’s Comments                                                 8

   Evaluation of Management’s Comments                                   9


   Review of Management Controls                                        10
   Recommendation                                                       12
   Management’s Comments                                                12
   Evaluation of Management’s Comments                                  12

   Contract Timeliness                                                   13
   Automated Project Management System                                   14
   Recommendation                                                        15
   Management's Comments                                                 15
   Evaluation of Management's Comments                                   16

Management Concerns about Organizational Structure                       17

Appendix A. Projects Greater Than $10 Million Approved by the Board      19
            of Governors October 1, 1993, through September 30,
            1999
Appendix B. Results of Major Contract Modification Review                20
Appendix C. Management's Comments                                        21
Review of Postal Service Major Construction                                         FA-AR-00-004
 Contracting Process


                                   EXECUTIVE SUMMARY
Introduction 	                This report presents the results of our audit of 33 major
                              construction facility contracts awarded between October 1,
                              1993, and September 30, 1999. The objective of the audit
                              was to review the effectiveness of the major construction
                              contracting process in assuring contract timeliness and
                              management controls over contract costs and performance.

Results in Brief              A review of 33 major construction facility projects approved
                              by the Board of Governors between October 1, 1993, and
                              September 30, 1999, identified no major problems in the
                              contracting process. However, we identified opportunities to
                              improve the process by (1) reviewing contract modifications
                              to identify their causes and reduce the dollar amount,
                              (2) developing and disseminating written guidance on the
                              roles and responsibilities for the process, and (3) continuing
                              to test and implement the Automated Project Management
                              System to ensure formal monitoring of contract timeliness
                              and performance measurement.

Summary of                    We recommend the vice president, Purchasing and
Recommendations               Materials work jointly with the vice president, Facilities, and
                              others as necessary, to (1) establish a process to review the
                              need for and reduce dollar amounts of contract
                              modifications, (2) agree on roles and responsibilities for the
                              major construction contracting process and disseminate the
                              roles and responsibilities to the Major Facilities Purchasing
                              and Facilities staff, (3) continue pursuing a system to
                              effectively monitor timeliness and measure performance of
                              the major facility construction process.

Summary of                    The vice presidents of Purchasing and Materials and
Management's                  Facilities agreed with our recommendations and stated that
Comments                      they would work together to identify root causes and provide
                              solutions to reduce the rate and dollar amounts of contract
                              modification. The vice president of Facilities also stated that
                              he believed the majority of the modifications were major
                              scope additions that should not be included in the analysis
                              of whether the Postal Service falls within industry standards.

                              The vice president further stated that the statement " . . .
                              they would have avoided $19 million in contract costs" was
                              misleading and that if the modifications were for major
                              scope changes and deemed necessary for the successful



                                                 i
Review of Postal Service Major Construction                                          FA-AR-00-004
 Contracting Process


                              completion of the project, the cost of this work could not
                              have been avoided.

                              In addition, the vice presidents stated they were working
                              together to develop a responsibility matrix to distribute to the
                              field. Further, the vice president of Facilities stated that they
                              plan to begin testing in the fall and deploying the system to
                              all projects as soon as possible.

Overall Evaluation of         Management's comments are responsive to our
Management's                  recommendations and planned actions should correct the
Comments                      findings identified in this report. The vice president of
                              Facilities stated that of the 11 projects identified as
                              exceeding industry standards the majority were for major
                              scope additions and should not be measured against the
                              standards. However, we were not provided with the
                              necessary information to substantiate whether they were out
                              of scope additions.




                                                 ii
Review of Postal Service Major Construction                                        FA-AR-00-004
 Contracting Process


                                        INTRODUCTION
 Background 	                  On June 3, 1993, the postmaster general, in a
                               memorandum to all Postal Service officers, directed that the
                               vice president, Purchasing and Materials “set in place a
                               process that will consolidate all contracting under the
                               authority of his office."

                               In January 1995, the vice president, Purchasing and
                               Materials, issued guidelines for the implementation and
                               consolidation of contracting for major construction projects.
                               These guidelines were approved by the Board of
                               Governors. According to the guidelines, Major Facilities
                               Purchasing was responsible for ensuring contract activities
                               were executed and administered properly. Facilities office
                               was responsible for ensuring that the implementation and
                               delivery processes for major construction projects were
                               properly executed and administered. Both offices shared
                               the responsibility for procurement planning, contract
                               awarding, monitoring, reporting, and project oversight.

                               Major construction facility contracts are those exceeding
                               $10 million and requiring approval by the Postal Service
                               Board of Governors. Since 1995, Major Facilities
                               Purchasing led in awarding major construction facility
                               contracts while working in conjunction with the Facilities
                               office.

                               According to the Purchasing Manual, dated
                               January 31, 1997, the vice president, Purchasing and
                               Materials, is responsible for all purchasing policies and
                               procedures. The vice president can delegate purchasing
                               authority to other officers. The vice president, Facilities,
                               was delegated responsibility for the acquisition, lease, and
                               disposal of real estate and related services. However, the
                               vice president, Purchasing and Materials, retained
                               responsibility for soliciting, evaluating, and awarding major
                               construction facility contracts.

                               The new agreements were necessary due to the closing of
                               the Major Facilities Office in Memphis, Tennessee, and
                               responsibility issues raised between Major Facilities




                                                1
Review of Postal Service Major Construction                                            FA-AR-00-004
 Contracting Process



                               Purchasing and Facilities personnel. Postal Service
                               executive officials stated they would review the process at
                               the end of fiscal year (FY) 2000 for its effectiveness.

 Overview of the Major         Handbook P-2, Design and Construction Purchasing
 Construction                  Practices Handbook, dated March 1999, provides guidance
 Contracting Process           for the major construction contracting process. The
                               handbook supplements the Purchasing Manual for architect-
                               engineer, construction, and related support contracts.

                               Each fiscal year, Major Facilities Purchasing, Facilities,
                               Finance, and Operations participate in the development of a
                               five-year facilities capital plan. The five-year plan prioritizes
                               major construction projects, establishes schedules, and
                               allocates budgets for each project. Facilities coordinates
                               the development of the facility planning concepts, selects
                               the site and coordinates project approval. If the project is
                               expected to exceed $10 million, Major Facilities Purchasing
                               assists Facilities organizations with their planning
                               responsibilities.

                               The preparation of an individual purchase plan, which is
                               based on the five-year plan, is considered the beginning of
                               the contracting process for a specific project. The major
                               construction contracting process starts with the Planning
                               and Prequalification phase and ends with the Project
                               Closeout phase. The five major phases of the process
                               consist of:

                                       1.     Planning and Prequalification
                                       2.     Solicitation/Advertisement/ Evaluation
                                       3.     Contract Award
                                       4.     Contract Administration
                                       5.     Close-out

                               Phase 1 responsibilities are shared between Major Facilities
                               Purchasing and Facilities through the composition of a
                               Purchase Team, headed by the contracting officer. These
                               responsibilities include such functions as performing market
                               research, developing an implementation plan, and
                               contractor selection plan. The two offices also determine
                               prequalification requirements and develop procedures for
                               monitoring and tracking the project throughout the planning
                               process.




                                                     2
Review of Postal Service Major Construction                                         FA-AR-00-004
 Contracting Process


                               Phase 2 responsibilities are performed primarily by Major
                               Facilities Purchasing. These include preparation of the
                               solicitation package, arranging the preproposal conference
                               and best value determinations.

                               Phase 3 responsibilities are performed primarily by Major
                               Facilities Purchasing. These responsibilities involve
                               contract award notification, contracting officer authority, and
                               contractor officer representative authority. If needed, a
                               construction management support services contract is
                               awarded by Facilities during this phase. The construction
                               management support services firm is responsible for
                               monitoring the work progress at the construction site.

                               Phase 4 responsibilities are shared between Major Facilities
                               Purchasing and Facilities. These responsibilities include
                               contract administration functions such as contract
                               modification approval, quality assurance inspections,
                               progress payments, and handling of claims. Because of the
                               extensive integration of responsibilities between Major
                               Facilities Purchasing and Facilities, we have included a
                               matrix to better illustrate the various responsibilities of each
                               office.




                                                3
Review of Postal Service Major Construction                                                                     FA-AR-00-004
 Contracting Process



                                                           Responsibility Matrix
                                                                                                   1
                                             Contract Administration for Major Facilities Projects

                                                     ACTIVITY                                  TEAM MEMBERS
                                                                                       Purchasing Facilities CMSSC
                                    Design Reviews/Meeting                                   S              L             S
                                    Pre-Construction Conference                              L              S             S
                                    Construction Progress Meetings                           S              S             L
                                    Quality Assurance (Inspections)                                         S             L
                                    Contract Compliance (Drawings & Specs)                   S              S             L
                                    Diversity Compliance                                     L                            S
                                    Progress Payments                                        L              S             S
                                    Contract Modifications                                   L              S             S
                                    Operational Training                                                    L             S
                                    Beneficial Occupancy                                     S              L             S
                                    Project Close Out                                        S              L             S
                                    Claims                                                   L              S             S
                                    Final Decisions                                          L              S             S
                                    Litigate (Board of Contract Appeals) *                   S              S             S
                                    Contract(s) Close Out                                    L              S             S
                                    Preparation of Progress Reports                          S              S             L
                                    Evaluation of Progress Reports                           S              L
                                    Contract Audits**                                        S              S

                                    Legend:
                                          (CMSSC) Construction Management Support Service Contract
                                            (L) Lead Responsibility
                                            (S) Support Responsibility
                                            (*) Indicates Postal Service Legal office has lead responsibility
                                            (**) Indicates Postal Service Office of Inspector General has lead responsibility

                                    Major Facilities Purchasing primarily completes phase 5
                                    responsibilities with some assistance from Facilities. These
                                    responsibilities include such duties as preoccupancy
                                    inspections and tests, claim resolution (if any), and
                                    administrative close-out and deauthorization of funds.

    Objective, Scope, and           We conducted this audit to determine whether:
    Methodology                     (1) procedures for managing costs and monitoring contract
                                    performance were adequate; (2) current policies and
                                    procedures provided a clear line of authority and
                                    responsibility between Major Facilities Purchasing and
                                    Facilities staff; and (3) contract solicitation, evaluation, and
                                    award were performed timely. The audit was included in
                                    our FY 2000 audit workload plan.




1
 This table is an excerpt from the Major Facilities Purchasing/Facilities Contract Administration Responsibilities and
Standards and Expectations for Construction Administration of Major Facilities Projects, October 1999.




                                                             4
Review of Postal Service Major Construction                                        FA-AR-00-004
 Contracting Process



                               The scope of the audit included a review of 33 major
                               construction contracts for projects with a dollar value of
                               $10 million or greater that were approved by the Board of
                               Governors between October 1, 1993, through
                               September 30, 1999. Appendix A is a summary of the
                               major construction contracts reviewed. The audit was
                               conducted at Postal Service Headquarters in Washington,
                               D.C.; the Major Facilities Office in Memphis, Tennessee;
                               Major Facilities Purchasing and Facilities offices in
                               Arlington, Virginia; and the Facilities Service Office in
                               Windsor, Connecticut. To fulfill the audit objectives, we
                               interviewed Postal Service officials, reviewed policies and
                               procedures, and reviewed contract and project files for
                               information pertaining to the different phases of the process.

                               This audit was conducted from February through
                               September 2000 in accordance with generally accepted
                               government auditing standards and included such tests of
                               internal controls as were considered necessary under the
                               circumstances. We discussed our conclusions and
                               observations with appropriate management officials and
                               included their comments, where appropriate.

 Prior Audit Coverage 	 We reviewed Postal Service Office of Inspector General
                        reports issued from April 1998 through September 1999 to
                        determine if any reviews were completed on the contracting
                        process for major construction. We concluded no directly
                        related reviews had been conducted. However, the
                        following reports closely relate to the subject matter of our
                        review:

                               •	 Audit report number CA-AR-99-003, Responsibilities of
                                  Contracting Officer’s Representatives,
                                  September 30, 1999, addressed the Postal Service’s
                                  contracting officer representative program as it related to
                                  construction contracts. The report stated that Facilities
                                  management had a system in place to provide for
                                  contracting officer representative administration of
                                  construction contracts and that the program was
                                  adequately administered. However, the report identified
                                  several areas of improvement for progress payments,
                                  invoice procedures, and final inspections and
                                  acceptance. Management generally concurred with the
                                  recommendations to implement improved procedures




                                                5
Review of Postal Service Major Construction                                       FA-AR-00-004
 Contracting Process


                                   and controls over regular audits, contract documentation,
                                   contractor payments, training, and contracting officer
                                   representative duties.

                               •	 Audit report number CA-AR-98-003, Procurement
                                  Prequalification Process, September 30, 1998, reported
                                  on the Postal Service prequalification program.
                                  According to the report, Major Facilities Purchasing was
                                  the primary user of prequalification. The report stated
                                  concerns regarding the lack of methodology and
                                  documentation in the planning process, inability to
                                  identify prequalification procurements in current contract
                                  data systems, and inadequate oversight of outside
                                  contractors involved in the prequalification process.
                                  Management generally concurred with the audit
                                  recommendations and stated they would continue efforts
                                  to revise and clarify the prequalification process.




                                                6
Review of Postal Service Major Construction                                         FA-AR-00-004
 Contracting Process


                                        AUDIT RESULTS
 Contract                      Our review of contract performance for 33 major
 Performance and               construction facility contracts identified no major problems
 Modifications                 relating to contracting officer authority, contracting officer
                               representatives’ authority, or responsible persons at the
                               sites for monitoring purposes. However, in 11 of the
                               contracts reviewed, we found the dollar amount increase
                               provided for through contract modifications exceeded the
                               industry standard. According to managers from Major
                               Facilities Purchasing and Facilities, the industry had said for
                               a successful project the dollar amount of modifications
                               should not exceed 3-5 percent for new construction and 10-
                               15 percent for repair and alteration projects. The Postal
                               Service did not have policies and procedures regarding the
                               dollar amount of contract modifications, but strived to meet
                               the industry standards.

 Review of Contract            We compared the original construction contract amounts
 Modifications                 with the amounts paid under construction contracts for the
                               33 contracts approved by the Board of Governors between
                               October 1, 1993, and September 30, 1999. In 11 of the
                               33 contracts reviewed, we found the dollar amount of the
                               contract modifications exceeded the industry standard for
                               either new construction or repair and alteration projects.
                               Seven of the eleven contracts were for new construction
                               and four for repair and alteration projects. As a result of
                               contract modifications of $35 million, the total cost of the 11
                               contracts increased from $204 million to $239 million.

                               To determine the amount that total contract modification
                               cost exceeded industry standards, we added the industry
                               standards of either 5 or 15 percent to the original
                               construction contract cost and subtracted the actual total
                               cost of the contract. We found that if the Postal Service had
                               remained within industry standards for the 11 contracts they
                               would have avoided $19 million in contract modification
                               costs. (See Appendix B for detailed results of our cost
                               calculations).

                               Postal Service officials were aware that several of the major
                               construction contracts had exceeded industry standards.
                               The Postal Service categorizes contract modifications in
                               three ways: (1) Postal Service changes, (2) design
                               deficiency, and (3) field condition. In our review of two of




                                                7
Review of Postal Service Major Construction                                       FA-AR-00-004
 Contracting Process


                               the eleven contracts exceeding industry standards, we
                               found the primary reason for modifications were requests for
                               changes by Postal Service personnel. For example, there
                               were ten contract modifications to the Atlanta, Georgia,
                               Airport Mail Center project. Eight of the modifications were
                               due to Postal Service change requests while two were due
                               to field conditions. The total costs of the ten modifications
                               totaled to $2.1 million, which was 8 percent of the original
                               contract amount of $28 million. The modifications also
                               added 169 days to the completion of the construction
                               project. Another example was the Spokane, Washington,
                               Processing and Distribution Center project. There were
                               12 contract modifications issued at the time of the review.
                               One was still in progress. We found that ten were Postal
                               Service change requests, one was for field condition, and
                               one was a combination of a Postal Service change and field
                               condition. The original construction contract amount for the
                               Spokane project was $22 million with a forecasted amount
                               at completion of $28 million. This amounted to a difference
                               of $5.4 million for contract modifications, which was
                               8 percent above the original contract amount.

                               Although the Postal Service had no policy restricting the
                               dollar amount of modifications after a contract was awarded,
                               they stated that they do strive to meet industry standards.

                               In an era of tightening budgets and the continuing need to
                               be as cost effective as possible, we believe there is an
                               opportunity to reduce the dollar amount of major
                               construction contract modifications.

 Recommendation 	              We recommend the vice president of Facilities, the vice
                               president of Purchasing and Materials, and others as
                               needed:

                               1. Work together to review contract modifications in an
                                  effort to identify causes for the modifications, and more
                                  importantly, to reduce the dollar amount of future
                                  modifications.




                                                8
Review of Postal Service Major Construction                                        FA-AR-00-004
 Contracting Process




 Management's                  The vice president of Purchasing and Materials agreed with
 Comments                      our finding and recommendation. He stated that Major
                               Facilities Purchasing would work with Facilities during FY
                               2001 to identify root causes and provide solutions to reduce
                               the rate and dollar amount of contract modifications.

                               The vice president of Facilities also agreed with the
                               recommendation, but did not fully agree with the statement
                               that "they would have avoided $19 million in contract
                               modification costs." He stated that to analyze whether or
                               not the Postal Service falls within the industry standard of 3-
                               5 percent for new construction and 10-15 percent for repair
                               and alteration projects, one needs to determine if the
                               change is outside of the original project scope. He stated
                               that of the 11 projects identified as exceeding the industry
                               standard, he believed the majority of the modifications fell
                               into the category of major scope additions and that if the
                               modifications were deemed necessary for the successful
                               completion of the project, the cost of this work could not
                               have been avoided. However, he stated that Facilities
                               supports the recommendation to review contract
                               modifications in an effort to identify causes for the
                               modifications and to incorporate the appropriate reoccurring
                               changes into their Standard Design Criteria.

 Evaluation of                 Overall, management's comments are responsive to our
 Management's                  recommendation and planned action should correct the
 Comments                      findings identified in this report. The vice president of
                               Facilities stated that of the 11 projects identified as
                               exceeding industry standards the majority were for major
                               scope additions and should not be measured against the
                               standards. However, we were not provided with the
                               necessary information to substantiate whether they were out
                               of scope additions. Facilities has an on going program to
                               review contract modifications in an effort to identify causes
                               for modifications and to incorporate the appropriate
                               recurring changes into standard design criteria.




                                                9
Review of Postal Service Major Construction                                        FA-AR-00-004
 Contracting Process




 Review of                     The Postal Service recently developed new policies and
 Management                    procedures in January 1997 and March 1999, relating to the
 Controls                      major construction contracting process. Our review
                               confirmed adherence to these policies and procedures.
                               However, we found that Purchasing and Materials and
                               Facilities had not incorporated a clear line of authority and
                               responsibility in their guidelines to effectively implement
                               functions of the major construction contracting process. In
                               addition, we found there was ineffective coordination and
                               communication between Purchasing and Materials and
                               Facilities regarding functional responsibilities. Although
                               senior level Postal Service officials signed an agreement on
                               January 11, 2000, establishing new policies and procedures
                               and designating functional responsibilities and changes for
                               Major Facilities Purchasing and Facilities, both offices do
                               not interpret their roles and responsibilities the same.

 Roles and	                    We identified the following ambiguities between Facilities
 Responsibilities 	            and Purchasing and Materials based on the Major Facilities
                               Purchasing and Facilities Responsibility Chart provided by
                               Facilities personnel:

                                •	 Under the solicitation phase, Facilities has the primary
                                   role, and Major Facilities Purchasing the supporting role
                                   for the "Establish Selection Criteria." However, Major
                                   Facilities Purchasing personnel stated they actually
                                   have the primary role and Facilities has the supporting
                                   role.

                               •	 Under the Contract Award phase, the two subcategories
                                  of the "Execute and Award Contract" task which include
                                  "Execute 4211 (Commitment Order)" and "Input
                                  Commitment in FMS [Facilities Management System for
                                  Windows]" are both listed as a Facilities primary function
                                  and a Major Facilities Purchasing support function.
                                  However, according to Major Facilities Purchasing
                                  personnel, the contracting officer signs the commitment
                                  order and that information is also input into the Facilities
                                  Management System for Windows by the Major Facilities
                                  Purchasing staff.




                                                10
Review of Postal Service Major Construction                                        FA-AR-00-004
 Contracting Process



                               •	 Under the Contract Award phase, the "Conduct
                                  Preconstruction Conference" task is described as a joint
                                  effort. However, Major Facilities Purchasing staff believe
                                  they have the primary role for this task.

                               •	 Under the Contract Administration phase, the "MBE
                                  [Minority Business Enterprise] Compliance" task is listed
                                  as being a primary responsibility of Facilities, and a
                                  supporting role of Major Facilities Purchasing. However,
                                  the Major Facilities Purchasing staff stated that the task
                                  is handled jointly between Facilities and Major Facilities
                                  Purchasing.

                               •	 Also under the Contract Administration phase, the
                                  "Project Close Out" task is described as a primary role of
                                  Facilities and no role is identified for Major Facilities
                                  Purchasing in this task. Major Facilities Purchasing
                                  staff, however, stated that the task is handled jointly
                                  between the two offices.

                               •	 Under the Monitor/Report/Oversight phase, the "Issue
                                  Reports to Vice Presidents" task is identified as a
                                  primary role of Major Facilities Purchasing and a
                                  supporting role of Facilities. Major Facilities Purchasing
                                  staff disagreed and stated this is a primary role of
                                  Facilities.

                               Documents revealed that despite numerous efforts and
                               communications to negotiate responsibilities, management
                               for both Purchasing and Materials and Facilities had not
                               resolved the issue of roles and responsibilities for the major
                               construction contracting process.

                               Failure to establish and disseminate guidance with clearly
                               defined roles and responsibilities for the major construction
                               contracting process leaves the Postal Service vulnerable to
                               potential mismanagement of resources through duplication
                               of efforts and lack of accountability. In addition, the lack of
                               clearly defined roles and responsibilities also affects
                               communication and coordination that could have an adverse
                               impact on the timeliness and quality of Postal Service major
                               construction projects.




                                                11
Review of Postal Service Major Construction                                        FA-AR-00-004
 Contracting Process



                               Organizational changes to the Major Facilities Purchasing
                               and Facilities operations over the past five years have
                               directly impacted the major construction contracting
                               process. Those changes included the elimination of the
                               Facilities Service Office in Philadelphia, Pennsylvania, and
                               the Major Facilities Office in Memphis, Tennessee. As a
                               result, we believe the Postal Service should update its
                               guidance to ensure agreed upon roles and responsibilities
                               are clearly documented and disseminated. The need for
                               clearly defined guidance is necessary based on the
                               integration of responsibilities between Major Facilities
                               Purchasing and Facilities. Both offices must depend on
                               each other for execution of the process to ensure the timely
                               delivery of quality major construction projects. Furthermore,
                               every effort should be made to ensure agreed
                               responsibilities are delegated according to the appropriate
                               areas of expertise.

 Recommendation 	              We recommend the vice president of Purchasing and
                               Materials and the vice president of Facilities, through a
                               coordinated effort:

                               2. Develop and disseminate clearly defined guidance on
                                  roles and responsibilities for the major construction
                                  contracting process.

 Management's	                 The vice president of Facilities and vice president of
 Comments 	                    Purchasing and Materials agreed with our recommendation.
                               They stated that Facilities and Major Facilities Purchasing
                               are working together to develop a responsibility matrix by
                               the end of 2000. Both offices will approve the matrix and
                               ensure distribution to all pertinent personnel.

 Evaluation of                 Management's comments are responsive to our
 Management’s                  recommendation and planned action should correct the
 Comments                      finding identified in this report.




                                                12
Review of Postal Service Major Construction                                        FA-AR-00-004
 Contracting Process




 Contract Timeliness           Our review highlighted that solicitation of major construction
                               contract proposals, evaluation of the proposals, and
                               awarding of the contracts appeared timely. Through 1995,
                               Facilities had the lead role in awarding major construction
                               contracts. Since 1995, Major Facilities Purchasing has
                               assumed the lead role in awarding major construction
                               contracts.

                               We reviewed 33 major construction contracts awarded
                               between October 1, 1993, and September 30, 1999. We
                               assessed timeliness from the issuance of the solicitation
                               package until the contract was awarded. We evaluated
                               timeliness based on a review of project files and interviews
                               with Postal Service officials. We also evaluated the number
                               of days from solicitation issuance to contract award against
                               the flowchart averages developed by Major Facilities
                               Purchasing.

                               The flowchart developed by Major Facilities Purchasing
                               reasonably estimates how long each phase of the
                               contracting process should take based on prior knowledge
                               and experience. The flowchart was devised in response to
                               a request by the vice president of Purchasing and Materials
                               to reduce the number of days for awarding of contracts.
                               According to the flowchart, it should take an average of
                               170 days from solicitation issuance to contract award.

                               Our review determined the time from solicitation issuance to
                               contract award averaged 191 days from 1993 through 1995,
                               and 140 days from 1996 through 1999. The overall average
                               from solicitation issuance to contract award from 1993 to
                               1999 averaged 157 days. For the contracts we evaluated,
                               the average time was slightly better than the Major Facilities
                               Purchasing flowchart average of 170 days. For the
                               33 contracts, the shortest time from solicitation issuance to
                               contract award was 44 days while the longest was
                               447 days.

                               The Postal Service did not have formal policies and
                               procedures that specified the standard number of days it
                               should take from issuance of the solicitation package to
                               awarding of the major construction contract. However,
                               Major Facilities Purchasing had begun using the flowchart to
                               review performance. They plan to use it in a more formal




                                               13
Review of Postal Service Major Construction                                                                            FA-AR-00-004
 Contracting Process


                               process in the future, in conjunction with the Automated
                               Project Management System. The following chart
                               summarizes our review of timeliness from 1993 through
                               1999:

                                                     Average Days from Solicitation Issuance to Contract Award




                                 200


                                           191
                                 180

                                                                                                                 170
                                 160
                                                                                       157
                                 140
                                                               140
                                 120


                                 100


                                  80


                                  60


                                  40


                                  20


                                   0
                                       1993 - 1995       1996 - 1999          Average Total          Flow Chart Ave.




 Automated Project             Major Facilities Purchasing is currently testing and
 Management System             implementing an Automated Project Management System to
                               track timeliness and performance of the major construction
                               contracting process. According to Postal Service officials,
                               the system will provide standardized electronic data so
                               Postal Service officials can review time and cost analyses
                               on a continuous and proactive basis. However, there had
                               been insufficient time to test the system to ensure that it
                               could serve as a measurement tool for contract
                               performance. As a result, Postal Service officials were not
                               able to fully assess purchasing timeliness and performance
                               of the major construction process.

                               Major Facilities Purchasing had developed a flowchart to
                               reasonably estimate how long each phase of the contracting
                               process should take based on prior knowledge and
                               experience. They had begun to monitor contract timeliness
                               and performance against their flowchart averages. In
                               addition, Major Facilities Purchasing were testing and
                               implementing an Automated Project Management System to



                                                            14
Review of Postal Service Major Construction                                        FA-AR-00-004
 Contracting Process


                               track timeliness and performance. They believe that this
                               system would help further refine the flowchart averages for
                               measuring contract timeliness and performance.

                               According to Postal Service Major Facilities Purchasing and
                               Facilities officials, the Automated Project Management
                               System will provide standardized electronic data, so they
                               could review timeliness and cost effectiveness on a
                               continuous and proactive basis. Full implementation of the
                               Automated Project Management System was expected by
                               August 2000. Major Facilities Purchasing funded the
                               development of the Automated Project Management
                               System. Implementation of the system would be funded by
                               each major construction project.

                               The Postal Service publishes an Annual Purchasing
                               Assessment Report that tracks purchasing activities'
                               contracting performance. According to the report, Postal
                               Service personnel may use the report to assess purchasing
                               performance, improve internal contracting controls, and
                               provide management with the necessary information to
                               support customer perfect initiatives. Historically, however,
                               Major Facilities Purchasing officials had not supplied data
                               for this report because they felt it would not be meaningful
                               since they only complete a few major construction projects
                               each year. Major Facilities Purchasing officials believed
                               that the new Automated Project Management System would
                               provide better data.

 Recommendation 	              We recommend the vice president of Purchasing and
                               Materials:

                               3. Continue testing and planning for implementation of the
                                  Automated Project Management System to ensure
                                  formal monitoring of contract timeliness and ability to
                                  measure performance of the major construction process.

 Management's                  The vice president of Purchasing and Materials agreed with
 Comments                      our recommendation. He stated that although the system is
                               approximately 1 1/2 months behind schedule due to
                               unforeseen hardware and software problems, they plan to
                               begin testing in the fall of 2000 and deploying to all projects
                               soon there after. He believes the system will provide them
                               with the data necessary to analyze and implement
                               improvements to the major construction contracting



                                                15
Review of Postal Service Major Construction                                     FA-AR-00-004
 Contracting Process


                               process. The vice president of Facilities also agreed with
                               our recommendation and stated that he will continue to
                               support and fund the implementation of the system on future
                               major projects because it will benefit both organizations.

 Evaluation of                 Management's comments are responsive to our
 Management's                  recommendation and planned action should address the
 Comments                      issue raised in this report.




                                              16
Review of Postal Service Major Construction                                       FA-AR-00-004
 Contracting Process


MANAGEMENT CONCERNS ABOUT ORGANIZATIONAL STRUCTURE
                               Interviews with Facilities and Major Facilities Purchasing
                               officials indicated they had some concerns with the
                               organizational structure for the major construction
                               contracting process. We have addressed those concerns
                               and provided our assessment.

 Facilities Concerns           Officials from Facilities stated the current organizational
                               structure is not designed to hold staff members accountable
                               for their roles in the process. They also stated that the
                               Postal Service requirement to obtain approval for some
                               operational functions outside their immediate chain of
                               command makes the process more time-consuming. For
                               example, current policy limits Facilities contracting officer
                               representative approval authority for modifications to
                               $50,000. Personnel stated that not only is this process
                               time-consuming, it is also a duplication of effort because
                               modifications must go through Facilities for technical review
                               before being approved by Major Facilities Purchasing.
                               Facilities officials also stated that due to the expected
                               decline in the Facilities budget, it is imperative the Postal
                               Service establish the most efficient and effective
                               organization structure possible to maximize resources.

 Assessment of                 Our review did not substantiate the claim that the
 Facilities Concerns           requirement for obtaining approval for modifications in
                               excess of $50,000 caused the contracting process to be
                               more time-consuming, because the requirement had only
                               been in place since January 2000. While Facilities
                               personnel expressed concern regarding the requirement,
                               they could not provide documentation citing any particular
                               case where a project had been delayed or impaired due to
                               the requirement.

                               As for the duplication of effort for the modification approval
                               process, we believe the current process was an internal
                               control check and balance system allowing input and
                               oversight by both offices with appropriate areas of expertise.

 Purchasing and                Purchasing and Materials officials were basically content
 Materials Concerns            with testing the current organizational structure. However,
                               they believed the Postal Service could best benefit if they
                               assumed responsibility for all major construction contracting
                               from planning through award. This would include such




                                               17
Review of Postal Service Major Construction                                         FA-AR-00-004
 Contracting Process


                               support contracts as architect-engineer and construction
                               management support service. Personnel stated this would
                               improve project delivery. They conceptualized that this
                               change would prevent past problems, such as not being
                               notified of changes or problems in a timely manner to avoid
                               project delays. According to Major Facilities Purchasing
                               personnel, if they had complete responsibility they could
                               address project problems immediately. Major Facilities
                               Purchasing personnel also stated that complete
                               responsibility for the planning through award phase would
                               make the process consistent with best practices and the
                               Purchasing Manual.

                               Overall, according to Major Facilities Purchasing personnel,
                               the change would result in Facilities and Major Facilities
                               Purchasing both being advocates for the customer and
                               sharing responsibility for the timely and efficient delivery of
                               the projects. Facilities staff would ensure that construction
                               projects proceed in accordance with technical requirements
                               of contract documents. Major Facilities Purchasing staff
                               would be responsible for processing all contract documents
                               and ensuring the contractor meets all obligations under the
                               terms of the contract. They believe the segregation of
                               responsibility by program management and contract
                               management could also improve coordination and
                               communication between the respective offices and their
                               suppliers.

 Assessment of                 Major Facilities Purchasing was never assigned full
 Purchasing Concerns           responsibility for the major construction contracting process.
                               As a result, we could not substantiate that if they had full
                               responsibility the Postal Service would have best benefited.
                               Also, we did not evaluate the effectiveness of the current
                               organizational structure because it had only been in effect
                               since January 2000. However, we did notice improvements
                               had been made to the process in the area of timeliness. For
                               example, the average days from solicitation issuance to
                               contract award dropped from 191 to 140 days over the past
                               four years.

 Assessment of                 We believe the Postal Service should ensure roles and
 Organizational                responsibilities are clearly understood. We also believe the
 Structure Concerns            Postal Service should allow the most recent changes to the
                               organizational structure sufficient time to be evaluated.




                                                18
Review of Postal Service Major Construction                                 FA-AR-00-004
 Contracting Process


                                              APPENDIX A
                PROJECTS GREATER THAN $10 MILLION
               APPROVED BY THE BOARD OF GOVERNORS
             OCTOBER 1, 1993 THROUGH SEPTEMBER 30, 1999
                        (Sorted by Date Approved)
                                                                             Total Amount
Number                                 Project                   Date          Approved
                                                               Approved       (in millions)
    1    WESTCHESTER, NEW YORK                                    Dec-93           $   102.0
    2    CHURCH STREET STATION NEW YORK, NEW YORK (Phase I)       Jan-94                45.9
    3    CHEYENNE, WYOMING                                        May-94                10.0
    4    ANAHEIM, CALIFORNIA                                      Jun-94                29.0
    5    KALAMAZOO, MICHIGAN                                       Jul-94               20.6
    6    LOUISVILLE, KENTUCKY AIRPORT MAIL CENTER                 Feb-95                10.7
    7    NATIONAL AIRPORT MAIL CENTER                             Apr-95                23.7
    8    SANTA BARBARA, CALIFORNIA                                May-95                31.0
    9    MATERIAL DISTRIBUTION CENTER                             Jun-95                12.8
   10    SEATTLE, WASHINGTON                                      Nov-95                85.4
   11    ISSAQUAH, WASHINGTON MAIN POST OFFICE                    Dec-95                10.1
   12    JACKSONVILLE, FLORIDA BULK MAIL CENTER                   Feb-96                81.6
   13    EL PASO, TEXAS                                           Feb-96                32.6
   14    ANCHORAGE, ALASKA                                        May-96                17.5
   15    LAS VEGAS, NEVADA EXPANSION                              May-96                11.5
   16    TERRE HAUTE, INDIANA                                     Jun-96                14.6
   17    QUAD CITIES, ILLINOIS                                     Jul-96               17.1
   18    NEW HAVEN, CONNECTICUT - (SOUTH CONNECTICUT)              Jul-96               50.3
   19    BUSSE SURFACE HUB - CHICAGO, ILLINOIS                    Aug-96                10.9
   20    ATLANTA, GEORGIA AIRPORT MAIL CENTER                     Sep-96                36.4
   21    KANSAS CITY, MISSOURI                                    Nov-96               108.2
   22    MINNEAPOLIS, MINNESOTA INFORMATION AND                   Nov-96                64.8
         ACCOUNTING SERVICE CENTER
   23    GOLDEN, COLORADO MAIN POST OFFICE/DELIVERY               Jan-97                   10.9
         DISTRIBUTION CENTER
   24    CHURCH STREET STATION NEW YORK, NEW YORK (Phase II)      Dec-97                91.0
   25    BOISE, IDAHO                                             Dec-97                33.3
   26    SIOUX FALLS, SOUTH DAKOTA                                Dec-97                18.2
   27    TULSA, OKLAHOMA                                          Jan-98                40.4
   28    NORTHEAST METRO, MICHIGAN                                Feb-98                87.1
   29    SPOKANE, WASHINGTON                                      Apr-98                40.9
   30    SPRINGDALE STATION STAMFORD, CONNECTICUT                 Nov-98                12.7
   31    COLUMBUS OHIO PROCESSING and DISTRIBUTION CENTER         Aug-99               140.5
   32    GREENSBORO NORTH CAROLINA PROCESSING and                 Aug-99                69.7
         DISTRIBUTION CENTER
   33    BRONX, NEW YORK - GENERAL POST OFFICE EXTENSION          Aug-99                   12.9
         RENOVATIONS




                                                  19
Review of Postal Service Major Construction                                                                                                     FA-AR-00-DRAFT
 Contracting Process


                                                                              APPENDIX B
                                     RESULTS OF MAJOR CONSTRUCTION CONTRACT MODIFICATION REVIEW
                                                                                                                                       PERCENTAGE    DOLLAR
 NUMBER




                                                                     ORIGINAL            ACTUAL                           MODIFICATION      OF      AMOUNT OF
                                                        INDUSTRY
                                PROJECT      TYPE OF               CONSTRUCTION       CONSTRUCTION     PERCENTAGE OF       DIFFERENCE MODIFICATION MODIFICATION
          PROJECT NAME                                 STANDARDS
                                NUMBER    CONSTRUCTION               CONTRACT           CONTRACT   MODIFICATIONDIFFERENCE    DOLLAR    DIFFERENCE DIFFERENCE
                                                            %
                                                                      AMOUNT             AMOUNT                              AMOUNT     EXCEEDING   EXCEEDING
                                                                                                                                        STANDARDS STANDARDS

          Westchester, NY P
 1                               1QZ147        N           5            $51,513,383          $56,338,789      9                4,825,406    4           2,249,737
           & DC and VMF
 2          National Airport     X00628        N           5             18,801,593           21,565,061      15               2,763,468   10           1,823,388
             Issaquah,
 3                              Y5DX029        N           5              3,392,244            3,817,067      13                424,823     8            255,211
           Washington MPO
           Atlanta, GA - Air
 4                               Y02731        N           5             27,800,000           29,900,000      8                2,100,000    3            710,000
             Mail Center
 5            Tulsa, OK          Y05912        N           5             22,800,000           29,500,000      29               6,700,000   24           5,560,000
 6           Spokane, WA         Y60675        N           5             22,098,000           27,516,153      25               5,418,153   20           4,313,253
          Springdale Station,
 7                               B67250        N           5              6,695,000            7,600,000      14                905,000     9            570,250
            Stamford, CT
 8           Louisville, KY      E09678        R          15              5,300,000            6,600,000      25               1,300,000   10            505,000
            Church Street
 9                               X06004        R          15             13,498,000           15,693,053      16               2,195,053    1            170,353
           Station- Phase I
 10           Seattle, WA        Y06163        R          15             19,968,000           25,282,304      27               5,314,304   12           2,319,104
            Church Street
 11                              Q19862        R          15             12,180,000           14,768,184      21               2,588,184    6            761,184
           Station- Phase III
             TOTAL                                                     $204,046,220       $238,580,611                       $34,534,391               19,237,480




          LEGEND:

          N = New

          R = Repair/ Alteration 





                                                                                        20
Review of Postal Service Major Construction            FA-AR-00-DRAFT
 Contracting Process


                   APPENDIX C. MANAGEMENT’S COMMENTS




                                              21
Review of Postal Service Major Construction        FA-AR-00-DRAFT
 Contracting Process




                                              22
Review of Postal Service Major Construction        FA-AR-00-DRAFT
 Contracting Process




                                              23
Review of Postal Service Major Construction        FA-AR-00-DRAFT
 Contracting Process




                                              24
